No. 19-333

R The Oupreme Court ®f The Euiteb Otacteo
ARLENE'S FLOWERS, INC., ET AL.,
PETITIONERS,
IV

CERTIFICATE OF
WORD COUNT

STATE OF WASHINGTON, ET AL.,
RESPONDENTS.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief In Opposition, which was prepared using Century Schoolbook
12-point typeface, contains 8,756 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the word-count
function of the word-processing system (Microsoft Word) used to prepare the
document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 6th day of December 2019.

4-J.
ALAN D. COPSEY
Deputy Solicitor General
1125 Washington Street SE
Olympia, WA 98504-0100
360-664-9018

